No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
RODNEY LAVALAIS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
NOW COMES Petitioner Rodney Lavalais, through undersigned counsel, and
moves this Honorable Court for leave to proceed in forma pauperis and to file the
attached Petition for Writ of Certiorari without prepayment of costs, pursuant to
Supreme Court Rule 39 and 18 U.S.C. ยง 3006A(d)(7). A United States Magistrate
Judge for the Eastern District of Louisiana declared Mr. Lavalais indigent and
appointed the Federal Public Defender to represent him on appeal. See United States
v. Lavalais, No. 2:17-CR-00243, Dkt. 6, (E.D. La. December 19, 2017) (order)
(attached hereto).
WHEREFORE, Petitioner respectfully moves this Honorable Court for leave
to proceed in forma pauperis and to file the attached Petition for Writ of Certiorari
without prepayment of costs.

Respectfully submitted this 20th day of August, 2020.
/s/Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
celia_rhoads@fd.org

2

Case 2:17-cr-00243-LMA-JCW Document 6 Filed 12/19/17 Page 1 of 1

